Office of Inspector General
HomeCurrently selectedAudits / EvaluationsInvestigationsCorrespondenceAudits InitiatedTestimonyAbout OIG
The Inspector GeneralOrganizationOrganization ChartMission, Vision, and Core ValuesFAQs About OIG AuditsFAQs About OIG InvestigationsCareersContact Us
ListsLibraries
Home > California Manufacturing Technology Consulting MEP Award No. 70NANB5H1181
California Manufacturing Technology Consulting MEP Award No. 70NANB5H1181
July 01, 2010
DEN-18572
Publication LinksDownload Abstract
Download Report
Oversight Areas
Office of the Secretary
Bureau of Economic Analysis
Bureau of Industry and Security
U.S. Census Bureau
Economic Development Administration
Economics and Statistics Administration
International Trade Administration
Minority Business Development Agency
National Oceanic and Atmospheric Administration
National Telecommunications and Information Administration
National Institute of Standards and Technology
National Technical Information Service
U.S. Patent and Trademark Office
home
U.S. Dept of Commerce
usa.gov
foia
info quality
privacy policy
disclaimer
plain language
FAR
CIGIE
Other Links
Contact Webmaster